No.

 

IN THE
Supreme Court of the United States

FRANK JOSEPH DODGE,
Petitioner,
v.

UNITED STATES OF AMERICA,
espondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

MOTION TO PROCEED JN FORMA PAUPERIS
Petitioner Frank Dodge, though undersigned counsel, asks leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis. Counsel was appointed in the United States Court of Appeals for
the Fourth Circuit and in the United States District Court for the Eastern District
of North Carolina pursuant to 18 U.S.C. ยง 3006A.

This the 28th day of December, 2020.

Respectfully submitted,

A ee
JACLYN L. TARLTON
ASSISTANT FEDERAL PUBLIC DEFENDER
OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450
Raleigh, N.C. 27601
(919) 856-4236
jackie_tarlton@fd.org
Counsel for Petitioner
